                                                 CLOSEOUT MEMORANDUM
                                                                 I\




                                                                                           11
                                                                 11
Case Number: 1-05-10-0060                                            I
                                                                 I                                       Page 1 of 1



         OIG was notified by NSF7sDivision of Financial Management (DFM) that subject' had
         apparently repeatedly misused her government travel credit card.

         A review of Subject's Bank of America government travel credit card statement transaction
         reports, for the period September 6ththru 0ctober 14", 2005, revealed 21 transactions, totaling
         $1,654.78, made in the Washington D.C. metropolitan area. The transactions included: h10ATM
         withdrawals, 7 gas station transactions, 3 grocery store transactions, and 1 wireless telephone
         payment.

         During an interview by the OIG, Subject admitted that she had repeatedly misused her
         government travel credit card by making the aboveimentioned transactions outside the scope of
         official business.

         In addition to NSF canceling Subject's government travel credit card account, OIG7sreferral to
         NSF resulted in Subject receiving a five day suspension from duty and pa               9.
         Accordingly, this case is closed.




          '                                                 1
          The five day suspension is effective for the period: Monday, January 30 through Friday, February 3,2006.



                                                                         Il
NSF OIG Fonn 2 (1 1/02)
                                                                         Il
